Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Are Medicare Allowances for
    Albuterol Sulfate Reasonable?




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1998
                      OEI-03-97-00292
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                   HEADQUARTERS

Linda M. Ragone, Project Leader                          Lisa A. Foley, Program Specialist
Cynthia R. Hansford, Program Assistant                   Stuart R. Wright, Program Specialist



     To obtain copies of this report, please call the Philadelphia Regional Office at 1-800-531-9562.
          Reports are also available on the World Wide Web at our home page address:
                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY


PURPOSE

To determine if the current Medicare allowance for albuterol sulfate is reasonable.

BACKGROUND

Albuterol sulfate is a prescription drug commonly used for inhalation therapy. Medicare allowed
$178 million for albuterol sulfate 0.083% in 1996 and over $200 million in 1997.

On January 1, 1998, as a result of the Balanced Budget Act of 1997, Medicare Part B began
reimbursing prescription drugs at 95 percent of average wholesale prices. Prior to January 1998,
Medicare allowances for drugs were set at the average wholesale price. Medicare allowances
include both the Medicare payment and the 20 percent coinsurance amount for which the
Medicare beneficiary is responsible.

For albuterol sulfate and other drugs where both brand name and generic versions are available,
reimbursement is based on 95 percent of the median average wholesale prices for all generic
sources. However, if a brand name product's average wholesale price is lower than the median
generic price, a new median including the brand name product must be calculated.

Based on a provision within the Balanced Budget Act of 1997, Medicare can diverge from a
statutorily prescribed payment method if its application results in a payment amount that is not
inherently reasonable. Another provision of the Act authorizes up to five competitive bidding
demonstrations in the Medicare fee-for-service program.

This report provides: (1) information from previously published Office of Inspector General
(OIG) reports pertaining to albuterol sulfate, and (2) new updated information on the
appropriateness of Medicare allowances for albuterol sulfate.

FINDINGS

Previous OIG reports identified excessive Medicare payments for albuterol sulfate.

       o	      Medicare and its beneficiaries paid $34 million more than Medicaid for albuterol
               sulfate in 17 States during a 14-month period ending February 1995.

       o	      Supplier acquisition costs are substantially lower than Medicare reimbursement
               for albuterol sulfate.

       o	      Customers of mail-order and retail pharmacies were able to purchase albuterol
               sulfate for less than what Medicare allowed.


Current information continues to prove that Medicare and its beneficiaries pay too much for
albuterol sulfate.

                                         )))))))))))
                                              iii
       o	      Medicare will allow between 56 to 550 percent more than the Department of
               Veterans Affairs will pay for generic versions of albuterol sulfate in 1998.

       o	      Medicare allowed 20 percent more than the average Medicaid payment for
               albuterol sulfate in 1997.

       o	      Medicare allowed up to 333 percent more than acquisition costs available for
               albuterol sulfate in 1998.

       o	      Customers of mail-order pharmacies will pay up to 30 percent less than Medicare
               for albuterol sulfate in 1998.

RECOMMENDATIONS

The findings of this report continue to provide evidence that Medicare and its beneficiaries are
making excessive payments for albuterol sulfate. We believe that the information in this report
provides further support for recommendations made by the Office of Inspector General. We
previously recommended, and HCFA concurred, that HCFA reexamine its Medicare drug
reimbursement methodologies, with the goal of reducing payments as appropriate. We outlined a
number of options for implementing this recommendation, including: (1) greater discounting of
published average wholesale prices, (2) basing payment on acquisition costs, (3) establishing
manufacturers’ rebates, and (4) permanent authority to use competitive bidding.

We continue to support the need for a comprehensive statutory reform of Medicare's prescription
drug reimbursement methodology. A number of proposals addressing reform have been offered
by both the Administration and members of Congress. However, until legislation can be passed
providing for such reform, we believe that HCFA should use its inherent reasonableness or
competitive bidding authorities to reduce Medicare payments for albuterol sulfate.

The Balanced Budget Act of 1997 provides HCFA with new inherent reasonableness authority
that can be applied to most Part B services. Specifically, the statute allows for up to 15 percent
annual adjustments in Medicare reimbursement rates without promulgating rules in the Federal
Register. Adjustments in excess of 15 percent continue to require promulgation of regulations.

We recommend that HCFA: (1) immediately reduce Medicare reimbursement for albuterol sulfate
by 15 percent using the new authority outlined in the Balanced Budget Act of 1997, and (2)
consider promulgating rules for a greater reduction in albuterol sulfate reimbursement. A
15 percent reduction in 1997 would have saved Medicare $30 million.

Alternatively, HCFA could use competitive bidding as a method to reduce Medicare payments for
albuterol sulfate. The Balanced Budget Act provided HCFA the authority to conduct up to five
demonstrations using this approach.

AGENCY COMMENTS

The HCFA concurred with the intent of our recommendations. However, it wants to give
Congress the opportunity to act on the Administration’s legislative proposal to reduce drug
payments before considering the use of its inherent reasonableness authorities. The

                                          )))))))))))
                                               iv
Administration’s fiscal year 1999 budget proposes to eliminate the overpayment on outpatient
drugs by reimbursing physicians and suppliers at their acquisition costs.

We support the need for a comprehensive legislative solution to Medicare’s drug reimbursement
methodology. However, until legislation is passed, we believe that HCFA should utilize the
authority recently provided by Congress to take an immediate 15 percent reduction in albuterol
sulfate reimbursement.




                                        )))))))))))
                                             v
                              TABLE OF CONTENTS

                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


  Previous reports identified excessive payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


  Current information provides support for a decrease in payments . . . . . . . . . . . . . . . . . . . . . . 7


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDIX A: Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . A - 1

                            INTRODUCTION

PURPOSE

To determine if the current Medicare allowance for albuterol sulfate is reasonable.

BACKGROUND

Albuterol sulfate 0.083% is a prescription drug commonly used for inhalation therapy.

This drug may be administered to a patient through a piece of durable medical equipment (DME)

known as a nebulizer. Patients with conditions such as asthma or emphysema may require

treatment with nebulizers.


Medicare does not generally pay for outpatient prescription drugs. However, Medicare Part B

will cover drugs if they are necessary for the effective use of DME. Medicare allowed $178

million for albuterol sulfate 0.083% in 1996 and over $200 million in 1997. 


Medicare Reimbursement of Albuterol Sulfate

On January 1, 1998, as a result of the Balanced Budget Act of 1997, Medicare Part B began
reimbursing prescription drugs at 95 percent of average wholesale prices (AWPs). Prior to
January 1998, Medicare allowances for drugs were set at the average wholesale price. Medicare
allowances include both the Medicare payment and the 20 percent coinsurance amount for which
the Medicare beneficiary is responsible.

For albuterol sulfate and other drugs where both brand name and generic versions are available,
reimbursement is based on 95 percent of the median AWP for all generic sources. However, if a
brand name product's average wholesale price is lower than the median generic price, a new
median including the brand name product must be calculated.

The Health Care Financing Administration (HCFA) contracts with four carriers to process Part B
claims for durable medical equipment. The four carriers, known as the Durable Medical
Equipment Regional Carriers (DMERCs), process albuterol sulfate claims. The DMERCs are
also responsible for establishing the Medicare allowed charge for the drug.

As a result of a provision within the Balanced Budget Act of 1997, Medicare can diverge from a
statutorily prescribed payment method if the application results in a payment amount that is not
inherently reasonable. The HCFA has developed an interim final rule that implements the new
statutory provision. These regulations became effective on March 9, 1998.

Another provision of the Balanced Budget Act of 1997 provides HCFA with the authority to
conduct competitive bidding demonstrations. The legislation authorizes up to five competitive
bidding demonstrations for health care items and services covered by the Medicare fee-for-service
program. These demonstrations must be completed by December 31, 2002.

Medicare Billing Codes for Albuterol Sulfate


                                         )))))))))))
                                              1
Currently, suppliers bill Medicare for albuterol sulfate using HCFA Common Procedure Coding
System (HCPCS) codes K0504 and K0505. Code K0504 represents 1 milligram (mg) of
albuterol sulfate in concentrated form. Code K0505 represents a unit dose form of albuterol
solution per milligram. Prior to April of 1997, suppliers billed Medicare for albuterol sulfate
0.083% using HCPCS code J7620. Code J7620 represented one milliliter (ml) of albuterol sulfate
0.083% solution.

Beginning in December 1996, Medicare clarified the billing policy for inhalation or nebulizer
drugs. Only pharmacies licensed in the State where they are physically located may bill DMERCs
for nebulizer drugs. In addition to billing Medicare for the drug product, pharmacies can also bill
a dispensing fee of approximately $5.00 (code Q0132) per monthly prescription. Prior to the
clarification, DME suppliers without pharmacy licenses could bill Medicare for medication
dispensed by a contracted pharmacy.

METHODOLOGY

This report provides: (1) information from previously published Office of Inspector General
reports pertaining to albuterol sulfate, and (2) new updated information on the appropriateness of
Medicare allowances for albuterol sulfate.

Information from Previous OIG Reports

Medicare Payments for Nebulizer Drugs (OEI-03-94-00390) examined Medicare and Medicaid
reimbursement methodologies for inhalation drugs. The inspection compared Medicare and
Medicaid payments for albuterol sulfate 0.083% in 17 States. These payments were made
between January 1994 and February 1995. Medicare information was obtained from the National
Claims History (NCH) file. Medicaid information was collected from the Medicaid Drug Rebate
Initiative (MDRI) system.

A Comparison of Albuterol Sulfate Prices (OEI-03-94-00392) assessed the appropriateness of
Medicare allowances for albuterol sulfate. For this report, we surveyed pharmaceutical buying
groups, mail-order pharmacies, and retail pharmacy stores and compared their prices for generic
versions of albuterol sulfate to the amount Medicare allowed.

Suppliers' Acquisition Costs for Albuterol Sulfate (OEI-03-94-00393) examined the acquisition
cost of albuterol sulfate for suppliers billing Medicare for the drug. We surveyed a random
sample of 485 supplier claims for albuterol sulfate provided to Medicare beneficiaries between
January 1994 and February 1995. We asked suppliers to provide us with their drug procurement
costs. Forty-seven percent of the sample provided us with the actual albuterol sulfate invoices.

Excessive Medicare Payments for Prescription Drugs (OEI-03-97-00290) compared Medicare
allowances for prescription drugs with drug acquisition prices available to the physician and
supplier communities. In order to determine possible acquisition costs for albuterol sulfate, we
reviewed 1995 and 1996 prices offered by wholesale drug companies and group purchasing
organizations.

Updated Information


                                         )))))))))))
                                              2
To obtain current information on what other payers where reimbursing for albuterol sulfate
0.083%, we collected data on the Medicaid program and the Department of Veterans Affairs’
(VA) healthcare system.

We collected 1998 charges or prices for albuterol sulfate 0.083% from mail-order pharmacies,
group purchasing organizations (buying groups), and wholesale drug companies. This
information provides an update of prices we had collected for previous reports.

Medicare Price Conversion

The new Medicare codes for albuterol sulfate are not based on certain concentrations (e.g.,
0.083%) but rather differentiate between providing a concentrated (K0504) or unit dose (K0505)
form of the drug. However, the DMERCs used albuterol sulfate 0.083% drug products to price
the K0505 codes. The albuterol sulfate 0.083% products that we reviewed would be considered
unit dose forms of the drug. Therefore, our pricing comparisons are based on Medicare's
reimbursement for code K0505.

Code K0505 provides reimbursement based on 1 milligram. The reimbursement for code K0505
in January 1998 was $0.47 per mg. However, since all of the albuterol sulfate price information
we have obtained through the years is based on milliliters, we have converted Medicare's current
milligram price to a milliliter price. Medicare carriers have provided instructions on how to
convert albuterol sulfate 0.083% products from milliliters to milligrams. The instructions are
provided below.

       The concentration of the drug in the dispensed solution can be converted to mg or
       gm as follows: A solution with a labeled concentration of 1% has ten (10) mg of
       drug in each milliliter (ml) of solution. Therefore, a 0.083% albuterol solution has
       0.83 mg of albuterol in each ml of solution. Since albuterol 0.083% solution
       typically comes in a 3 ml vial/ampule, each vial/ampule contains 2.5 mg of
       albuterol (3 x .83 = 2.5).

All of the albuterol sulfate drug products we reviewed came in 3 ml vials. Since the DMERC
instructions identify these vials as containing 2.5 mg of albuterol sulfate, we calculated a milliliter
price using this milligram amount. We multiplied 2.5 mg of albuterol sulfate by the current mg
reimbursement of $0.47 (2.5 mg x $0.47 = $1.175). We then divided this by three ml to come up
with a Medicare allowance per ml that we could use for comparison purposes ($1.175/3 ml =
$0.39). We used $0.39 as Medicare's allowance for 1 ml of albuterol sulfate 0.083%.


Medicaid Reimbursement

We retrieved Medicaid utilization and pricing data from the MDRI system. We used the national
drug codes (NDCs) for generic albuterol sulfate 0.083% that were used in our previous report.
We used the generic versions since Medicare reimbursement is, for the most part, based on
generic drug prices. We also updated this information with any new NDCs that were available in
the January 1998 Red Book CD-ROM update. We found Medicaid data for 19 generic NDCs.



                                           )))))))))))
                                                3
We extracted the most current data that the MDRI system contains (first through the third
quarters of 1997). We collected information on Medicaid's utilization, reimbursement, and total
rebate savings for each NDC. Medicaid reimbursement amounts include dispensing fees but do
not include any recipient copayment or third-party insurance amounts.

While Medicare reimburses the same amount regardless of the specific drug product provided,
Medicaid bases reimbursement on the specific drug product. Therefore, to compare Medicare and
Medicaid's reimbursement, we needed to determine the average amount that Medicaid reimburses
per ml of albuterol sulfate. We aggregated the reimbursement for all 19 drug products and
divided this by the aggregate utilization to determine the average Medicaid reimbursement per ml.


To determine the average Medicaid reimbursement after rebate, we subtracted the aggregate
rebate savings from the aggregate reimbursement and divided this by the aggregate utilization.
For four NDCs, we found that reimbursement and utilization data was available but rebate
amounts were not for certain quarters. Therefore, our average Medicaid reimbursement amount
after rebate may be a conservative estimate.

Department of Veterans Affairs Information

The Department of Veterans Affairs purchases prescription drugs for its healthcare system
directly from manufacturers or wholesalers. We have amassed the purchase prices for generic
albuterol sulfate 0.083% drug products available on the VA's national formulary. We have used
the prices available to the VA on the Federal Supply Schedule. All of these prices were available
through March of 1998.

Using the January 1998 Red Book update, we compiled all of the NDCs for generic albuterol
sulfate 0.083%. We compared this to the VA's national formulary and obtained VA prices for
nine drug products. We then calculated the ml price for each of these drug products and
compared it with Medicare's allowance.

Group Purchasing Organization and Wholesale Drug Company Prices

We contacted all five group purchasing organizations (buying groups) which we had surveyed for
our previous report. One of the organizations refused to provide us with information and another
had gone out of business. The three remaining organizations provided us with their current 1998
negotiated prices for albuterol sulfate 0.083%. In addition, we were able to obtain prices from
two more organizations that were not surveyed for our previous report.

Group purchasing organizations (GPOs) negotiate drug prices from drug manufacturers and
suppliers. The organizations provide these negotiated prices to their pharmacy members. These
organizations sometimes charge for membership. Of the five organizations surveyed, two charge
$100, two charge no fee, and one charges $500.

Pharmacy members sometimes pay a small percentage amount above the negotiated price when
purchasing drugs from a GPO. These amounts are known as upcharges. Two of the GPOs do
not have an upcharge. The other three have an upcharge of between 1.5 and 5 percent. These
upcharges were included in our pricing calculations.

                                         )))))))))))
                                              4
We also were able to collect 1998 drug pricing lists from three wholesale drug companies. The
albuterol sulfate 0.083% prices collected are available to pharmacies throughout the nation.
There are no additional charges for these drugs.

Pharmacies purchasing drugs from GPOs and wholesalers are sometimes offered additional
rebates or discounts based on the amount of drug supplies they purchase. We did not include any
volume purchasing discounts or rebates in our pricing calculations.

Mail-Order Pharmacy Prices

We contacted the five mail-order pharmacies surveyed for our earlier report. All five pharmacies
were able to provide us with the current 1998 prices they charge their customers for albuterol
sulfate 0.083%. Only one pharmacy charged a $1.00 shipping fee per order. This charge was
factored into the price. One pharmacy charged a $9.95 membership fee; this amount was not
factored into the price.




                                        )))))))))))
                                             5
                                     FINDINGS

PREVIOUS OIG REPORTS IDENTIFIED EXCESSIVE MEDICARE PAYMENTS FOR
ALBUTEROL SULFATE.

The Office of Inspector General has issued several reports addressing the appropriateness of
Medicare allowances for albuterol sulfate 0.083%. We have compared Medicare's allowance for
albuterol sulfate with Medicaid's payments, supplier acquisition costs, and mail-order and retail
pharmacy prices. We have found significant differences when comparing what Medicare pays to
actual prices available in the marketplace.

Medicare and its beneficiaries paid $34 million more than Medicaid for albuterol sulfate in 17
States during a 14-month period ending February 1995.

Medicare and its beneficiaries would have saved $11 million in payments for albuterol sulfate
between January 1, 1994 and February 28, 1995 if reimbursement had been based on Medicaid's
payment methodology in the 17 States reviewed. In addition, Medicare would have saved an
additional $23 million on albuterol sulfate claims if a drug rebate program similar to Medicaid's
had been in place.

Supplier acquisition costs were substantially lower than Medicare reimbursement for albuterol
sulfate.

Our review of 230 supplier's actual invoice costs for albuterol sulfate identified an actual average
cost of $0.19 per ml of albuterol sulfate during 1994. At the same time, Medicare contractors
reimbursed suppliers between $0.40 and $0.43 per ml for albuterol sulfate, more than double the
actual cost.

The amounts that suppliers paid for albuterol sulfate varied depending on the type of organization
from which the drugs were purchased. When purchased from a drug manufacturer, the average
supplier cost was $0.14 per ml. The average cost per ml of albuterol sulfate was $0.20 when
suppliers purchased from drug wholesale companies. Suppliers purchasing albuterol sulfate from
pharmacies paid an average of $0.23 per ml. Due to a clarification in Medicare policy, suppliers
can no longer contract with pharmacies to dispense medication. Only licensed pharmacies can
now dispense and bill Medicare for prescription drugs.

Beginning in April of 1995, we surveyed five group purchasing organizations to establish the
prices their members pay for albuterol sulfate. These organizations' prices were between $0.13
and $0.19 for generic versions of albuterol sulfate. The thousand of pharmacies that were
members of these groups were able to purchase albuterol sulfate at these low prices. At the time
of this survey, three DMERCs were paying $0.43 per ml for albuterol sulfate and one DMERC
was paying $0.40.

For another report, we reviewed actual wholesale prices available to suppliers in 1995 and 1996
from drug wholesalers and group purchasing organizations. We found that the average actual
wholesale price for albuterol sulfate was $0.15 in 1995 and $0.19 in 1996. We found that
Medicare and its beneficiaries could have saved 64 percent or an estimated $106 million in 1995 if

                                          )))))))))))
                                               6
payments for albuterol sulfate had been based on average actual costs. In 1996, Medicare and its
beneficiaries could have saved 53 percent or $92 million if payments were based on actual costs
available to pharmacy suppliers.

Customers of mail-order and retail pharmacies were able to purchase albuterol sulfate for less
than what Medicare allowed.

During 1995, we found that five large national mail-order pharmacies charged customers less than
Medicare allowed for albuterol sulfate. The companies charged between 2 and 53 percent less
than the Medicare allowance of $0.43 per ml of albuterol sulfate. Four of the mail-order
pharmacies charged an additional 2 to 20 percent less when a larger volume of drugs were
purchased.

During 1995, we also found that 55 percent of retail pharmacy stores surveyed (60 of 109)
charged less for the generic version of albuterol sulfate than Medicare allowed. More than
one-quarter of the pharmacies charged at least 20 percent less than Medicare for a ml of albuterol
sulfate.

CURRENT INFORMATION CONTINUES TO PROVE THAT MEDICARE AND ITS
BENEFICIARIES PAY TOO MUCH FOR ALBUTEROL SULFATE.

We updated Medicaid, acquisition, and mail-order prices for albuterol sulfate in 1997 and 1998.
We are also providing a comparison of Medicare's reimbursement for albuterol sulfate with that of
another Federal agency that procures prescription drugs, the Department of Veterans Affairs.

For most of 1997, Medicare allowed $0.41 per ml or $0.49 per mg for albuterol sulfate 0.083% in
unit dose form. Beginning in January of 1998, Medicare allowances for albuterol sulfate are
$0.39 per ml or $0.47 per mg of albuterol sulfate in unit dose form.

Medicare will allow between 56 to 550 percent more than the Department of Veterans Affairs
will pay for generic versions of albuterol sulfate in 1998.

While Medicare will allow $0.39 for 1 ml of albuterol sulfate in unit dose form, the VA will
acquire it for between $0.06 to $0.25 in 1998. We found VA reimbursement for nine generic
albuterol sulfate 0.083% products. These products came from six different
manufacturers/distributors. The VA can purchase seven of the nine drugs for between $0.06 to
$0.12 per ml. The VA pays $0.19 and $0.25 for the remaining two products.

Medicare allowed 20 percent more than the average Medicaid payment for albuterol sulfate in
1997.

In the first three quarters of 1997, the Medicaid program paid an average of $0.34 for a ml of
generic albuterol sulfate. Generic products represented 95 percent of the total drug
reimbursement for albuterol sulfate in the Medicaid program. During that same time, Medicare
paid $0.07 more or 20 percent more per ml than Medicaid. In addition, Medicaid received an
average drug rebate of $0.01 for every ml of albuterol sulfate paid for by the program.



                                         )))))))))))
                                              7
Medicare allowed up to 333 percent more than acquisition costs available for albuterol sulfate
in 1998.

During 1998, five group purchasing organizations negotiated prices for their members of between
$0.10 and $0.19 per ml of albuterol sulfate 0.083%. We obtained prices for 15 albuterol sulfate
products from these group purchasing organizations. Fourteen of the 15 prices were between
$0.10 to $0.12 per ml.

Three drug wholesalers provided albuterol sulfate to customers for between $0.09 and $0.14 per
ml in 1998. We collected nine different product prices from drug wholesalers. The drug
wholesalers charged $0.09 for four products and $0.14 for another three products. They charged
$0.10 and $0.13 for the remaining two products.

To the pharmacies purchasing albuterol sulfate at these prices, the Medicare program would have
allowed between two and four times the acquisition cost of the drug.

Customers of mail-order pharmacies will pay up to 30 percent less than Medicare for
albuterol sulfate in 1998.

To provide updated 1998 information, we surveyed the five mail-order pharmacies we reviewed
in 1995. Four mail-order pharmacies charged their customers less than Medicare. These
pharmacies charged between $0.27 and $0.38 per ml of albuterol sulfate compared with the $0.39
allowed by Medicare. The fifth pharmacy charged between $0.31 and $0.39 depending on the
volume of the product purchased.




                                        )))))))))))
                                             8
                      RECOMMENDATIONS


The findings of this report continue to provide evidence that Medicare and its beneficiaries are
making excessive payments for albuterol sulfate. We believe that the information in this report
provides further support for recommendations made by the Office of Inspector General. We
previously recommended, and HCFA concurred, that HCFA reexamine its Medicare drug
reimbursement methodologies, with the goal of reducing payments as appropriate. We outlined a
number of options for implementing this recommendation, including: (1) greater discounting of
published average wholesale prices, (2) basing payment on acquisition costs, (3) establishing
manufacturers’ rebates, and (4) permanent authority to use competitive bidding.

We continue to support the need for a comprehensive statutory reform of Medicare's prescription
drug reimbursement methodology. A number of proposals addressing reform have been offered
by both the Administration and members of Congress. However, until legislation can be passed
providing for such reform, we believe that HCFA should use its inherent reasonableness or
competitive bidding authorities to reduce Medicare payments for albuterol sulfate.

The Balanced Budget Act of 1997 provides HCFA with new inherent reasonableness authority
that can be applied to most Part B services. Specifically, the statute allows for up to 15 percent
annual adjustments in Medicare reimbursement rates without promulgating rules in the Federal
Register. Adjustments in excess of 15 percent continue to require promulgation of regulations.

We recommend that HCFA: (1) immediately reduce Medicare reimbursement for albuterol sulfate
by 15 percent using the new authority outlined in the Balanced Budget Act of 1997, and (2)
consider promulgating rules for a greater reduction in albuterol sulfate reimbursement. We
estimate that a 15 percent reduction in albuterol sulfate reimbursement could have saved Medicare
and its beneficiaries $30 million in 1997.

Alternatively, HCFA could use competitive bidding as a method to reduce Medicare payments for
albuterol sulfate. The Balanced Budget Act provided HCFA the authority to conduct up to five
demonstrations using this approach.

AGENCY COMMENTS

The HCFA concurred with the intent of our recommendations. However, it wants to give
Congress the opportunity to act on the Administration’s legislative proposal to reduce drug
payments before considering the use of its inherent reasonableness authorities. The
Administration’s fiscal year 1999 budget proposes to eliminate the overpayment on outpatient
drugs by reimbursing physicians and suppliers at their acquisition costs. The full text of HCFA’s
comments are provided in Appendix A.



OIG RESPONSE




                                          )))))))))))
                                               9
We support the need for a comprehensive legislative solution to Medicare’s drug reimbursement
methodology. However, until legislation is passed, we believe that HCFA should utilize the
authority recently provided by Congress to take an immediate 15 percent reduction in albuterol
sulfate reimbursement.




                                        )))))))))))
                                             10
           APPENDIX A





Health Care Financing Administration Comments




                )))))))))))
                    A - 1

)))))))))))
    A - 2

)))))))))))
    A - 3

